No.

IN THE
SUPREME COURT OF THE UNITED STATES
LI QIN PETITIONER In Pro Per
VS.
Barbara Kong-Brown et. Al. — RESPONDENT(S)
PROOF OF SERVICE
I, Liao Zhang, do swear or declare that on this date July 11, 2020, as required by
Supreme Court Rule 29 I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or that party's counsel, and on every other
person required to be served, by depositing an envelope containing the above documents in
the United States mail properly addressed to each of them and with first-priority postage
prepaid. The names and addresses of those served are as follows:

(1) Barbara Kong Brown P.O. Box 10366 or 831 Longridge Rd, Oakland,
CA 94610 Tel: (510) 208-3688
(2) John Steward Simonson Hayes Scott Bonino Ellingson & McClay
LLP. 203 Redwood Shores Pkwy Suite 480, Redwood City, CA 940656100. Tel: (650) 486-2884
(3) Matthew Allen Bisbee Hayes Scott Bonino Ellingson S, 999 Skyway
Road, Suite 310, San Carlos, CA 94707 (650) 637-9101
(4) Kaiser Foundation Hospitals, Kaiser Foundation Health Plan, In
Legal Department 1950 Franklin Street, 17th Floor Oakland, CA
94612. Tel: (510) 987-2712
I declare under penalty of perjury that the foregoing is true and correct.
Executed on Hawthorne City California

July 11, 2020

(Signature)

Additional material
from this filing is
available in the
Clerk's Office.

